Securities and Exchange
    Commission
  Office of Inspector General
During the second half of fiscal year 2006, the Office of Inspector
General assisted the Commission in its efforts to:

    - Improve information technology security,

    - Implement appropriate controls to prevent conflicts of
          interest in procurements,

    - Enhance the integrity of the Commission and its staff by
         investigating allegations of misconduct,

    - Improve the preliminary review process for disclosure
          filings,

    - Develop a plan to ensure continuity of operations after a
         contingency (e.g., a natural or man-made disaster),

    - Strengthen procedures for oversight of a large
           information technology contract,

    - Improve the timeliness of the processing of exemptive
          applications,

    - Enhance the oversight of the Public Company
          Accounting Oversight Board,

    - Assure adequate security over official personnel files,
      and

    - Appropriately screen candidates in the law student
      observer program.
                                                                                   PAGE 2



                                 Executive Summary
During this period (April 1, 2006 to September 30, 2006), the Office of Inspector General
(Office) issued five audit reports, one inspection report, two special projects, and one
investigative memoranda on management issues, and completed one survey.
These evaluations focused on preliminary reviews of disclosure filings; conflict of interest
controls in procurement; the Commission’s information technology contract with
DynCorp/CSC; exemptive application processing; oversight of the Public Company
Accounting Oversight Board; continuity of operations planning; personnel files; the law
student observer program; the annual evaluation under the Federal Information Security
Management Act; and a Privacy Act questionnaire. This work is described in more detail in
the Audit Program section below.
Five investigations were closed during the period. One subject was referred to the
Department of Justice, which declined prosecution. Three subjects were referred to
Commission management. One of these subjects, a contract employee, was removed from the
contract. One subject referred during the prior semiannual period was suspended for four
days; another subject referred during the prior period was counseled and required to attend
facilitation. Six subjects referred during this period and prior semi-annual periods are
awaiting disposition. The Investigative Program section below describes the significant
cases closed during the period.
Our Office previously reported Information technology (IT) management as a significant
problem. During this period, the Commission further improved its IT management,
especially IT security. We no longer consider IT security to be a significant weakness. We
intend to maintain our audit focus in this important area.
An audit completed in a prior period found that Commission financial management controls
for fiscal year 2002 were effective in all material respects except for controls over property
accountability, accounting and control of disgorgements, information system and security
program controls, and the Disgorgement and Penalties Tracking System. We reported these
exceptions, taken together, as a significant problem.
The Government Accountability Office (GAO) identified similar weaknesses in its audits of
the Commission’s fiscal years 2004 and 2005 financial statements (except for property
accountability - the value of the property account balance was below the materiality
threshold). During its ongoing audit of the Commission’s fiscal year 2006 financial
statements, the GAO indicated that it no longer considers IT security to be a material
weakness.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.




S E C O I G S E M I - AN N U AL R E P O R T                                OCTOBER 31,
2006
                                                                                   PAGE 3



                                          Audit Program
During this period, the Office issued five audit reports, one inspection report, two special
projects, and one investigative memorandum on management issues. The Office also
completed a survey.
These evaluations are summarized below. Management generally concurred with our
recommendations, and in many cases took corrective actions during the evaluations. A list
of pending evaluations follows the summaries.


PRELIMINARY REVIEW OF DISCLOSURE FILINGS (NO. 401)
We reviewed the Division of Corporation Finance’s preliminary review process for
disclosure filings. We found that the Division has made several enhancements to the
process. Further enhancements are planned, including additional focus on the quality of
the filing company.
We made several recommendations to improve preliminary reviews, including enhancing
consideration of company risk factors, maintaining surveillance of large companies, and
continuing efforts to manage workloads better.


CONFLICT OF INTEREST CONTROLS IN PROCUREMENT (NO. 404)
We reviewed the controls used by the Commission to prevent and detect conflicts of interest
during the procurement process. The audit was begun after an investigation by our office
disclosed that an employee participated in a procurement while holding a disqualifying
financial interest in a firm involved in the procurement.
We found that the conflict of interest controls were functioning, but that they could be
improved. We recommended that the relevant regulation be updated to reflect current
practices and to help ensure that required documentation is maintained. We also
recommended that the Office of Administrative Services take steps to enhance related
training and record-keeping.


SURVEY OF DYNCORP CONTRACT (NO. 407)
An OIG contractor performed a survey of a large Commission IT contract with
DynCorp/CSC. The primary purpose of the survey was to identify areas for future detailed
audit work.
At the end of the survey, we briefed the Office of Information Technology (OIT) on our
results and made several preliminary suggestions to enhance contract oversight. The OIG
contractor has started a detailed review of several areas identified during the survey.



S E C O I G S E M I - AN N U AL R E P O R T                                 OCTOBER 31,
2006
                                                                                    PAGE 4


IM EXEMPTIVE APPLICATION PROCESSING (NO. 408)
We reviewed the exemptive application process in the Division of Investment Management.
Under the Investment Company Act of 1940, the Commission is authorized to grant
exemptions from the Act’s provisions when the exemption is in the public interest.
We found that the timeliness of the application process could be improved. Our
recommendations included issuing exemptive rules, filing applications electronically, and
restricting or eliminating the review of draft exemptive applications. We also
recommended the return of poorly prepared applications, developing standard follow-up
procedures, improving performance measures, and revising the applications database.


OVERSIGHT OF PCAOB (NO. 412)
Under the Sarbanes-Oxley Act of 20002, the Commission has oversight of the Public
Company Accounting Oversight Board (which was created by the Act). Our review of the
Commission’s oversight identified several possible improvements.
Among other steps, we recommended that the Commission have the Board seek reports
from its external auditor on its internal controls and compliance with laws and regulations;
enhance oversight of the Board’s human capital and disaster contingency plans; develop
policies and procedures for certain Commission oversight responsibilities under the Act;
and consider possible delegations of authority within the Commission regarding the Board.


CONTINUITY OF OPERATIONS PLANNING (NO. 413)
We reviewed the Commission’s preparations for responding to contingencies that could
affect the Commission’s operations or securities markets (such as natural or man-made
disasters). During the audit, Commission staff updated the draft Continuity of Operations
(COOP) Plan and worked on several continuity-related initiatives.
We made several recommendations to assist the Commission’s contingency planning,
including designating a permanent COOP coordinator, ensuring adequate COOP staffing,
making enhancements to the Market Watch rooms, testing backup generators, backing-up
vital records, and training Commission essential staff.


PERSONNEL FILES (NO. 419)
As a follow-up to a prior audit, we performed an inspection of the security over personnel
files maintained by the Office of Human Resources (OHR). We found that OHR had taken
several steps to improve security over the files, including relocating the file room, installing
a cipher lock, and limiting access to the file room.
We recommended several additional steps, including guidance on signing-out and
safeguarding files in use, periodic inventories of files, and storing certain records
electronically.

S E C O I G S E M I - AN N U AL R E P O R T                                  OCTOBER 31,
2006
                                                                                  PAGE 5


FISMA 2006 (NO. 425)
We hired a contractor to assist us in the annual evaluation of Commission IT security
under the Federal Information Security Management Act (FISMA). The evaluation found
that the Commission has continued to make progress in developing a mature information
security program, and has addressed many security vulnerabilities identified in prior
assessments. Overall, we no longer consider IT security to be a significant problem at the
Commission.
We recommended improvements in developing the inventory of major systems, the
certification and accreditation process, the tracking of security weaknesses, and the
documentation of systems.


PRIVACY ACT QUESTIONNAIRE (NO. 426)
The FISMA contractor also helped us complete a data collection (DCI) instrument prepared
by the Inspector General community (through the PCIE/ECIE). The DCI’s purpose was to
assess agency compliance with OMB requirements for securing sensitive data (i.e.,
personally identifiable information protected by the Privacy Act) described in OMB
memorandum M-06-16, issued June 23, 2006. This memorandum responded to numerous
incidents involving the compromise or loss of sensitive personal information by Federal
agencies.
Based on our evaluation, we observed that the Commission has not yet fully implemented
the OMB requirements. However, the Commission’s Privacy Office and the Office of
Information Technology are taking steps to comply by implementing additional controls and
developing a policy on securing Privacy Act information.


LAW STUDENT OBSERVER PROGRAM (G-444)
Unpaid interns who are not U.S. citizens work at the Commission through the Law Student
Observer Program. During an investigation, we identified needed improvements in the
selection process for these interns, and in determining what access they are given to
Commission information and databases.
We recommended that the Office of the Executive Director (in consultation with affected
offices) consider performing additional background and conflict of interest checks for these
interns. We also recommended that the OED determine what access, if any, they should be
given to non-public Commission information.


PENDING EVALUATIONS
The following evaluations were pending at the close of the semi-annual period (September
30, 2006):
No. 405 IT Management in Enforcement

S E C O I G S E M I - AN N U AL R E P O R T                               OCTOBER 31,
2006
                                                                                 PAGE 6


No. 416 Staff Interpretative Guidance
No. 417 Systems Security Evaluation—Blue Sheet System
No. 420 Office of Risk Assessment
No. 421 Investment Company Filing Initiatives
No. 422 FOIA Backlog
No. 423 Enforcement Performance Management
No. 424 Systems Security Evaluation—STARS
No. 427 DynCorp Contract—Detailed Review



                                   Investigative Program
Five investigations were closed during the period. One subject was referred to the
Department of Justice, which declined prosecution. Three subjects were referred to
Commission management. One of these subjects, a contract employee, was removed from
the contract. One subject referred during the prior semi-annual period was suspended for
four days; another subject referred during the prior period was counseled and required to
attend facilitation. Six subjects referred during this period and prior semi-annual periods
are awaiting disposition.
The most significant cases closed during the period are described below.


VIOLATION OF RULE REGARDING SECURITIES TRANSACTIONS
An Office investigation developed evidence that a staff member purchased securities in
violation of the Commission’s rule governing employee security transactions and failed to
comply with the rule’s reporting requirements. We also found evidence that some of the
employee’s securities purchases created an appearance of impropriety and that the
employee did not consistently and accurately report financial assets on the Office of
Government Ethics confidential financial disclosure form. The Department of Justice
declined prosecution, and administrative action is pending.


BREACH OF CONFIDENTIALITY REQUIREMENT
An investigation found evidence that a Commission contract employee violated the terms of
the contract by discussing in a public setting non-public information learned through the
contractor’s work at the Commission. The contract employee admitted and apologized for
the disclosures. At the commencement of our investigation, the employee was removed
from the contract. The employee will not be allowed to return to work at the Commission.



S E C O I G S E M I - AN N U AL R E P O R T                                OCTOBER 31,
2006
                                                                                 PAGE 7


UNAUTHORIZED DISCLOSURE
The Office investigated concerns that an intern working at the Commission may have
disclosed non-public Commission information to unauthorized persons. The investigation
found insufficient evidence of improper disclosures of non-public information by the intern.



                                    Significant Problems
No new significant problems were identified during the period.



           Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). The audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects, based on
criteria established under the Federal Managers Financial Integrity Act, except for three
material weaknesses and one material non-conformance.
The exceptions concerned property accountability, accounting and control of disgorgements,
information system and security program controls, and the Disgorgement and Penalties
Tracking System. We reported that, taken together, these financial management
exceptions were a significant problem for the Commission. Management concurred with
our recommendations to strengthen these financial controls, and promptly began to take
actions to correct the weaknesses.
The Government Accountability Office (GAO) performed the audit of the Commission’s
financial statements for fiscal years 2004 and 2005. The audits found that the Commission
has made significant progress in building a financial reporting structure for preparing
financial statements for audit.
GAO also found that the SEC property account balance was below the threshold for
materiality; as a consequence we removed property accountability as an element of this
significant problem. However, GAO identified material internal control weaknesses in
preparing financial statements and related disclosures, recording and reporting
disgorgements and penalties, and information security, which became the basis for this
significant problem.
During its ongoing audit of the Commission’s fiscal year 2006 financial statements, GAO
indicated that it no longer considers information security to be a material weakness, based
on the corrective actions to date. It has not yet indicated whether the preparation of
financial statements and recording and reporting of disgorgements and penalties still
constitute material weaknesses.
S E C O I G S E M I - AN N U AL R E P O R T                               OCTOBER 31,
2006
                                                                                   PAGE 8


INFORMATION TECHNOLOGY MANAGEMENT
Since April 1996, we have reported information technology (IT) management as a
significant problem based on weaknesses identified by several audits, investigations, and
management studies. Significant IT weaknesses included information systems security; IT
capital investment decision-making; administration of IT contracts; IT project
management; enterprise architecture management; strategic management of IT human
capital; and management of software licenses.
We no longer consider information systems security to be an element of this significant
problem, based on our fiscal year 2006 FISMA evaluation and GAO’s ongoing audit of the
Commission’s fiscal year 2006 financial statements. The Office of Information Technology
(OIT) indicated that it has continued to strengthen the management of Commission IT
during this reporting period. OIT expects that IT management will no longer be a
significant problem by the end of fiscal year 2007.
Although OIT continues to take actions to correct the identified IT weaknesses, we still
consider IT management to be a significant problem at this time. We intend to continue
our oversight of this area.



                                   Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                              Other Matters

EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of
its Financial Institutions Regulatory Committee, and serves as the ECIE member on the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
The Associate Inspector General for Investigations/Counsel to the Inspector General and
the Associate Counsels are active members of the PCIE Council of Counsels. The Council
considers legal issues relevant to the Inspector General community.



S E C O I G S E M I - AN N U AL R E P O R T                                OCTOBER 31,
2006
                                                                                 PAGE 9


PEER REVIEW
The Office of Inspector General of the Corporation for Public Broadcasting completed a peer
review of the Office’s audit function during the period. The review found that the audit
function complied with generally accepted government auditing standards. As a result of
the review, we made several changes to our Audit and Inspection Manual to enhance our
audit quality control system.
In the next semi-annual period (the first half of fiscal year 2007), the Office of Inspector
General of the Equal Employment Opportunity Commission is scheduled to perform a peer
review of the Office’s investigative function.


REVIEW OF LEGISLATION AND REGULATIONS
The Office reviewed existing and proposed legislation and regulations relating to the
programs and operations of the Commission, pursuant to the Inspector General Act of 1978,
as amended. We tracked both legislation and regulations by researching relevant
documents and databases, including lists prepared by the IG community and the
Commission's Office of General Counsel. Our independent assessments focused on the
impact on the economy and efficiency of, and the prevention and detection of fraud and
abuse in, programs and operations administered by the Commission. In addition, statutes
and regulations were reviewed within the context of audits and investigations (e.g., the
impact of the Federal Information Security Management Act on Commission operations).
Among the legislation we assessed was the “Credit Rating Agency Reform Act of 2006” (S.
3850). This act streamlines the current process for designating credit rating firms and
gives the Commission new power to inspect and to discipline rating firms. The Office did
not provide any comments. We also had no comments on any of the proposed or final rules
issued by the Commission.
We provided comments to the Government Accountability Office on proposed changes to the
Government Auditing Standards. We also reviewed the Commission's network log-in
banner and recommended that it be revised to comply with Department of Justice guidance.
 The Commission implemented our suggestions.




S E C O I G S E M I - AN N U AL R E P O R T                               OCTOBER 31,
2006
                                                                      PAGE 10




                                      Questioned Costs

                                                              DOLLAR VALUE
                                                            (IN THOUSANDS)


                                                         UNSUPPORTED     QUESTIONED
                                               NUMBER       COSTS          COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting         0            0                 0
           period

B          Which were issued during the
           reporting period
                                                 0            0                 0

           Subtotals (A+B)                       0            0                 0

C          For which a management decision       0            0                 0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs      0            0                 0

    (ii)   Dollar value of costs not             0           0                  0
           disallowed

D          For which no management               0           0                  0
           decision has been made by the end
           of the period

           Reports for which no management       0           0                  0
           decision was made within six
           months of issuance




S E C O I G S E M I - AN N U AL R E P O R T                       OCTOBER 31,
2006
                                                                          PAGE 11




                Recommendations That Funds Be Put To
                          Better Use
                                                                DOLLAR VALUE
                                                      NUMBER   (IN THOUSANDS)
A              For which no management decision
               has been made by the commencement
                                                         0            0
               of the reporting period
B              Which were issued during the
               reporting period
                                                         0            0


               Subtotals (A+B)                           0            0
C              For which a management decision           0            0
               was made during the period
     (i)       Dollar value of recommendations that      0            0
               were agreed to by management
           -   Based on proposed management              0            0
               action
           -   Based on proposed legislative action      0            0
     (ii)      Dollar value of recommendations that      0            0
               were not agreed to by management
D              For which no management decision
               has been made by the end of the
                                                         0            0
               reporting period
               Reports for which no management
               decision was made within six months
                                                         0            0
               of issuance




S E C O I G S E M I - AN N U AL R E P O R T                        OCTOBER 31,
2006
                                                                              PAGE 12




           Reports with No Management Decisions
Management decisions have been made on all audit reports issued before the beginning of
this reporting period (April 1, 2006).



                    Revised Management Decisions
No management decisions were revised during the period.



          Agreement with Significant Management
                        Decisions
The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C O I G S E M I - AN N U AL R E P O R T                             OCTOBER 31,
2006
                      MANAGEMENT RESPONSE OF
              THE SECURITIES AND EXCHANGE COMMISSION
    ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
        FOR THE PERIOD APRIL 1, 2006 THROUGH SEPTEMBER 30, 2006


Introduction

The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on October 31, 2006 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by a member of the
Executive Staff, as well as the Executive Director, General Counsel, and Director of the Division
of Enforcement. The Management Response is based on their views and consultation with the
Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I
                  Comments Keyed to Significant Sections of the IG Report

A.    Audit Program

      During the reporting period, the IG issued five audit reports, one inspection report, two
      special project reports, and one investigative memorandum on management issues. The IG
      also completed one survey. Management generally concurred with the findings and
      recommendations in the IG’s reports.

      In addition to audits performed by the agency’s IG, the Government Accountability Office
      (GAO) actively reviewed program and administrative functions of the SEC. A complete
      listing of all GAO audit activity involving the SEC is attached as Appendix A.

B.    Response to Significant Problems

      No new significant problems were identified by the IG during this reporting period.

C.    Response to Significant Problems Previously Identified

      Financial Management System Controls

      As in prior years, the Inspector General’s report provides a description of the financial
      management system control weaknesses identified during an OIG contractor’s audit and
      subsequent GAO audits. During the 2006 financial statement audit, GAO reviewed the
      corrective actions taken by the SEC to resolve the material weaknesses in this area and
      determined that financial management system controls are no longer a material weakness.
      The following is a description of corrective actions taken to improve controls in this area.
                                                                                              
   •   Financial Statement Preparation Process. In 2006, the SEC made substantial
       progress in improving its financial management system controls. Among other
       initiatives, the agency’s Office of Financial Management completed documentation
       of key policies and procedures for financial reporting; improved documentation of
       the audit trail between general ledger accounts and the financial statements, prepared
       interim financial statement notes, and added key staff. In addition, the office
       formalized the membership, procedures, and responsibilities of the Financial
       Management Oversight Committee.

   •   Recording and Reporting of Disgorgement and Penalties. The SEC took a number
       of important steps to ensure the integrity of enforcement-related disgorgement and
       penalty data: the Enforcement Division completed a comprehensive Delinquent
       Debt Project, the agency introduced new controls over the recording of enforcement
       receivables, and the agency completed the design of a new financial management
       system for tracking disgorgement and penalties that will replace the financial portion
       of the Division’s existing case tracking system.

Information Resources Management

During this reporting period, the Office of Information Technology (OIT) significantly
improved the underlying management controls and overarching policies and procedures
governing the management of information technology. OIT satisfied a total of 87 audit
recommendations in fiscal 2006, addressing the need to establish and implement a body of
management controls, policies and procedures related to IT capital investment decision-
making, administration of IT contracts, IT project management, enterprise architecture
management, strategic management of IT human capital, and management of software
licenses.

With respect to IT security, the SEC improved this area to the point where the IG no longer
considers it a component of this significant problem. The SEC implemented a wide variety
of new policies and procedures governing the assessment and management of information
security risk. These procedures include comprehensive approaches for identifying security
risk; configuring, testing, and monitoring information systems; incident response; remedial
action tracking; and many other areas. The SEC also completed the certification and
accreditation of its major systems, and conducted awareness training for 99 percent of SEC
staff. The SEC also established and tested its disaster recovery and business continuity
plans in accordance with recommendations from previous years.




                                           2
     Although some additional work remains to be completed to adequately address some
     aspects of the IG’s continuing concerns, OIT is currently working with the Inspector
     General to jointly assess the remaining elements of the significant problem.

     Given the continuous attention, progress and improvements made by OIT to establish,
     implement, and enforce effective IT management policies and controls, the SEC’s Chief
     Information Officer anticipates resolving this significant problem in fiscal 2007.

D.   IG Recommendations Concerning Use of Funds

     None.

E.   Reports with No Management Decisions

     Management decisions have been made on all audits issued prior to the beginning of the
     reporting period (April 1, 2006).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                              3
SEC Management Response to
Semiannual IG Report
April 1, 2006 – September 30, 2006


                                          SECTION II
                                        Disallowed Costs
                                    As of September 30, 2006


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                        0          $0

B.     On which management decisions
       were made during the reporting
       period                                                  0          $0

       (Subtotal A+B)                                          0          $0

C.     For which final action was
       taken during the reporting
       period                                                  0          $0

       (i)    Recovered by management                          0          $0

       (ii)   Disallowed by management                         0          $0

D.     For which no final action has
       been taken by the end of the
       reporting period                                        0          $0




                                               4
SEC Management Response to
Semiannual IG Report
April 1, 2006 – September 30, 2006


                                          SECTION III
                                      Funds Put to Better Use
                                        As of April 1, 2006


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                     0             $0

B.     On which management decisions
       were made during the reporting
       period                                               0             $0

C.     For which final action was
       taken during the reporting
       period:

       (i)    Dollar value of recom-
              mendations that were
              agreed to by management                       0             $0

       (ii)   Dollar value of recom-
              mendations that management
              has subsequently concluded
              should/could not be
              implemented or completed                      0             $0

D.     For which no final action has been
       taken by the end of the reporting period             0             $0




                                                  5
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          April 1, 2006 – September 30, 2006

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2006


                                                  Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued        (in thousands)        (in thousands)    Reason Final Action Not Taken

220       IRM Planning and
          Execution                 3/26/1996        $0                      $0           An overarching policy framework
                                                                                          has been implemented, which addresses
                                                                                          all aspects of IT management. A major
                                                                                          initiative is underway to publish all
                                                                                          remaining IT-related policies in 2007.

320       General Computer Controls 12/26/2000       $0                      $0           The recommendations are being addressed
                                                                                          as part of the remediation efforts underway
                                                                                          as a result of the audits of SEC’s financial
                                                                                          statements.

337       IT Project Management     1/24/2002        $0                      $0           See explanation for audit #220.




                                                                   6
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           April 1, 2006 – September 30, 2006

                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                    As of September 30, 2006


                                                   Funds Put to
                                                    Better Use          Questioned Costs
Audit #   Audit Title                Issued        (in thousands)       (in thousands)         Reason Final Action Not Taken

353       Regional Telecommuni-
          cations Security           8/20/2002        $0                      $0               An inventory of voice and circuit data
                                                                                               is ongoing and expected to be completed
                                                                                               in the first quarter of fiscal 2007.

365       IT Capital Investment
          Decision-making Followup   3/29/2004        $0                      $0               The draft IT Capital Planning Committee
                                                                                               Charter is being revised due to a shift in
                                                                                               its mission.

371       Small Business Reg D
          Exemption Process          3/31/2004        $0                      $0               The two remaining recommendations
                                                                                               are being addressed as part of a rule-
                                                                                               making initiative. A process has been
                                                                                               worked out to coordinate development
                                                                                               of the rule proposals with state securities
                                                                                               regulators.

                                                                    7
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            April 1, 2006 – September 30, 2006


                                                             SECTION IV
                                                 Open Audit Reports Over One Year Old
                                                       As of September 30, 2006


                                                   Funds Put to
                                                    Better Use          Questioned Costs
Audit #   Audit Title               Issued         (in thousands)        (in thousands)    Reason Final Action Not Taken

376       Telephone Card Program    11/17/2003        $0                      $0           See explanation for audit #220.

377       Lost and Stolen
          Securities Program        3/31/2004         $0                      $0           Several Commission releases are expected
                                                                                           to be revised. In addition, a process is
                                                                                           being created for managing non-
                                                                                           SEC developed applications.

380       IT Contractor Billings    1/10/2005         $0                      $0           Some policies are being changed in
                                                                                           conjunction with the automated procure-
                                                                                           ment system currently being implemented.
383       Targeting IA/IC
          Compliance Examinations   9/29/2004         $0                      $0           Most of the recommendations have been
                                                                                           implemented. Various options are
                                                                                           being explored to meet the spirit and intent
                                                                                           of the remaining open recommendations.

                                                                    8
                                                                                              SEC Management Response to
                                                                                              Semiannual IG Report
                                                                                              April 1, 2006 – September 30, 2006

                                                             SECTION IV
                                                 Open Audit Reports Over One Year Old
                                                       As of September 30, 2006


                                                      Funds Put to
                                                       Better Use          Questioned Costs
Audit #   Audit Title                   Issued        (in thousands)        (in thousands)     Reason Final Action Not Taken

393       Software Management                            $0                     $0             Policies and procedures are expected to
                                                                                               be published in 2007. In addition, work is
                                                                                               underway to identify performance
                                                                                               metrics for monitoring and follow-up
                                                                                               on software licensing information.

394       Targeting B/D Compliance
           Examinations                 9/22/2005        $0                      $0            Efforts are underway to enhance the
                                                                                               broker-dealer targeting process and
                                                                                               to develop a risk rating system.

395       Integrity Program—
          Inspection of Field Offices   5/31/2005        $0                      $0            The draft employee handbook is being
                                                                                               reviewed.




                                                                       9
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           April 1, 2006 – September 30, 2006

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2006


                                                  Funds Put to
                                                   Better Use           Questioned Costs
Audit #   Audit Title               Issued        (in thousands)          (in thousands)    Reason Final Action Not Taken

402       Office of the Secretary   9/20/2005        $0                       $0            Policies have been drafted and will be
                                                                                            issued in 2007.

406       Federal Information
           Security Management
           Act—2005                 9/28/2005        $0                       $0            E-authentication risk assessments are
                                                                                            being conducted for systems remotely
                                                                                            authenticating users over the network.
                                                                                            The expected completion date is March
                                                                                            2007.

409       Certification and
          Accreditation of ACTS+                     $0                       $0            The system’s security and disaster
                                                                                            recovery plans are being updated.
                                                                                            The expected completion date is March
                                                                                            2007.


                                                                   10
                                                                                              SEC Management Response to
                                                                                              Semiannual IG Report
                                                                                              April 1, 2006 – September 30, 2006

                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                      As of September 30, 2006


                                                     Funds Put to
                                                      Better Use           Questioned Costs
Audit #   Audit Title                  Issued        (in thousands)          (in thousands)    Reason Final Action Not Taken

411       Security Certification and
          Accreditation Process        9/30/2005        $0                       $0            The general support system certification
                                                                                               and accreditation is being updated. The
                                                                                               updated certification and accreditation will
                                                                                               be used to reassess the security test and
                                                                                               evaluations of the SEC’s 12 major
                                                                                               applications already accredited. The
                                                                                               expected completion date is March 2007.




                                                                      11
                                                                     APPENDIX A


                       Government Accountability Office Audit Activity
                      Involving the Securities and Exchange Commission


Reports Issued During the Reporting Period

1.     Internal Control: Improvements Needed in SEC’s Accounting and Financial
       Reporting Procedures (GAO-06-459R, Mar. 2006)

2.     Sarbanes-Oxley Act: Consideration of Key Principles Needed in Addressing
       Implementation for Smaller Public Companies (GAO-06-361, Apr. 2006)

3.     Personnel Practices: Conversion of Employees from Noncareer to Career Positions
       May 2001-April 2005 (GAO-06-381, May 2006)

4.     Personal Information: Key Federal Privacy Laws Do Not Require Information
       Resellers to Safeguard All Sensitive Data (GAO-06-674, June 2006)

5.     Financial Restatements: Update of Public Company Trends, Market Impacts, and
       Regulatory Enforcement Activities (GAO-06-678, June 2006)


Projects Active as of September 30, 2006

1.   Hedge Funds and Related Federal Regulatory Oversight (250313). A review of the
     risks and regulatory framework of hedge funds. Issues to be addressed include the
     evolution of the hedge fund industry in terms of growth, investment strategies and
     fee structures; SEC oversight of hedge funds and financial regulators’ oversight of
     counterparties; disclosure requirements; potential implications of ERISA
     amendments related to hedge funds; and the applicability of legislative reforms
     suggested by the President’s Working Group after Long Term Capital Management.
     In addition to the SEC, GAO will be conducting the audit work at the Department of
     Labor, Commodity Futures Trading Commission, Federal Reserve, Office of the
     Comptroller of the Currency, Federal Deposit Insurance Corporation, and Office of
     Thrift Supervision.

2.   SEC Oversight of Corporate Governance Ratings (250312). A review of the SEC’s
     oversight of firms that provide proxy advisory services and corporate governance
     ratings. GAO will focus on (1) the structure and operations of these firms,
     particularly with respect to the potential for conflicts of interest; (2) the extent to
     which the methodologies used by these firms to issue ratings and proxy
     recommendations are transparent; (3) the extent to which competition exists in the
     industry; (4) the impact these firms have, if any, on proxy voting; and (5) the extent
     of any other related SEC actions involving these firms.
                                                                                                 
3.   Credit Derivatives (250310). A review of the use of information technology systems
     in the credit derivatives markets. GAO will determine: (1) the extent to which major
     dealers are using IT systems to manage their operational risk in connection with their
     credit derivative transactions, (2) the extent to which financial regulators are
     overseeing the operational risk faced by major dealers in connection with their credit
     derivatives transactions, and (3) actions that industry associations and clearing
     organizations are taking to improve IT systems to reduce operations risk.

4.   Pay and Performance Systems (450460/450492). A review of pay and performance
     systems at the SEC and other federal financial regulatory agencies. For each of these
     agencies, GAO will examine the extent to which their pay and performance
     management systems are aligned with key practices important for effective
     performance management.

5.   NCUA Corporate Governance (250302). A review of the National Credit Union
     Administration’s policies and procedures regarding the composition and professional
     background of NCUA’s Board members and senior staff as it relates to independence
     and objectivity issues. GAO intends to talk with SEC about the Commission and its
     senior staff, to identify best practices regarding policies and procedures related to
     independence and objectivity.

6.   EBSA’s ERISA Enforcement (130532). A study to assess the capability of the Labor
     Department’s Employee Benefits Security Administration to enforce pension laws.
     Among other things, GAO will examine what promising enforcement practices and
     strategies agencies such as SEC and the IRS use that may be applicable to EBSA’s
     enforcement efforts.

7.   Pension Plan Asset Management (130554). A study of the potential conflicts that
     may exist involving investment managers and the effects these conflicts may have
     had on recent problems in plan underfunding.

8.   Basel II Capital Accord (250291). A review of the potential impact of the
     implementation of Basel II on the U.S. financial system and the proposed revisions to
     current reserve requirement regulations for non-Basel II banks.

9.   Consolidated Supervision (250258). A study of the policies and procedures of the
     various agencies engaged in consolidated supervisory responsibilities for financial
     institutions to determine how and why they differ, the effectiveness of consolidated
     supervision and the extent to which agencies seek to improve its effectiveness by
     identifying and adopting “best practices”, and the implications of any duplication of
     resources caused by having various regulatory bodies engaged in overseeing similar
     activities.


                                            2
10.   Financial Markets Preparation Follow-on (250285). A review of the progress made
      by U.S. financial regulators and market participants to increase their security and
      resiliency against attacks or other disasters, as well as to follow-up on issues and
      recommendations made from GAO’s prior reports.

11.   Financial Literacy (250276). A review of the Financial Literacy and Education
      Commission’s (1) national strategy and (2) activities to promote financial literacy
      and coordinate federal efforts in this area.

12.   FY 2006 SEC Financial Statement Audit (194571). An audit of the SEC’s 2006
      financial statements. GAO will (1) express an opinion on whether the SEC’s fiscal
      year 2006 financial statements are fairly presented, in all material respects, in
      conformity with U.S. generally accepted accounting principles, (2) express an
      opinion on whether SEC’s internal controls provided reasonable assurance that
      losses, noncompliance or misstatements material in relation to the statements would
      be prevented or detected on a timely basis, and (3) report on SEC compliance with
      selected provisions of laws and regulations.

13.   PUHCA (360719). A study of FERC’s efforts to assume responsibilities for
      protecting consumers and investors previously under the jurisdiction of the SEC.
      GAO plans to describe differences in state’s authority to regulate utility affiliates.
      GAO plans to meet with SEC to discuss any transition issues and concerns.

14.   CFTC Oversight (250256) and Natural Gas Prices (360659). The first assignment is
      a review of the CFTC’s oversight of futures trading in energy. The second
      assignment is a review of the factors that affect natural gas price volatility—
      particularly those driving today’s higher prices—and the federal government role in
      ensuring that prices are determined in a competitive market. Although SEC is not the
      focus of these studies, GAO will meet with SEC to discuss: (1) the SEC’s equities
      market surveillance, and (2) SEC’s staff report entitled, “Implications of the Growth
      of Hedge Funds in September 2003,” and how the role played by hedge funds in the
      financial markets has changed.

15.   World Peak Oil Production (360601). A review of the available data and estimates
      of world oil reserves, oil production and oil consumption, as well as government and
      private studies predicting the date of world peak oil production. GAO’s contact with
      SEC focuses on SEC guidelines and definitions for accurate disclosures of proved oil
      reserves in SEC filings.




                                               3
